<html>
<title> - OVERSIGHT HEARING ON THE BROWNFIELD'S PROGRAM - CLEANING UP AND REBUILDING COMMUNITIES</title>
<body><pre>[Senate Hearing 112-983]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-983

     OVERSIGHT HEARING ON THE BROWNFIELD'S PROGRAM_CLEANING UP AND 
                         REBUILDING COMMUNITIES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON SUPERFUND, TOXICS
                        AND ENVIRONMENTAL HEALTH

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 19, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov

                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-967 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                 
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director

       Subcommittee on Superfund, Toxics and Environmental Health

                     FRANK R. LAUTENBERG, Chairman
MAX BAUCUS, Montana                  MIKE CRAPO, Idaho
THOMAS R. CARPER, Delaware           LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
KIRSTEN GILLIBAND, New York          JOHN BOOZMAN, Arkansas
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 16, 2011
                           OPENING STATEMENTS

Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     6

                               WITNESSES

Lloyd, David R., Office Director, Office of Brownfields and Land 
  Revitalization, Office of Solid Waste and Emergency Response, 
  U.S. Environmental Protection Agency...........................     9
    Prepared statement...........................................    12
Responses to additional questions from:
    Senator Boxer................................................    24
    Senator Lautenberg...........................................    26
    Senator Inhofe...............................................    29
Cornett, Hon. Mick Mayor, Oklahoma City, Oklahoma................    34
    Prepared statement...........................................    37
Spinelli, Elizabeth, Executive Director, Hudson County Economic 
  Development Corporation........................................    49
    Prepared statement...........................................    51
Scheff, Aaron, Brownfields Program Manager, Idaho Department of 
  Environmental Quality..........................................    62
    Prepared statement...........................................    65
    Responses to additional questions from Senator Inhofe........    77
Paull, E. Evans, Executive Director, National Brownfields 
  Coalition......................................................    81
    Prepared statement...........................................    83
Buckholtz, Marjorie Weidenfeld, President, Environmental 
  Consulting Solutions...........................................    90
    Prepared statement...........................................    92

 
    OVERSIGHT HEARING ON THE BROWNFIELD'S PROGRAM - CLEANING UP AND 
                         REBUILDING COMMUNITIES

                              ----------                              


                      WEDNESDAY, OCTOBER 19, 2011

                               U.S. Senate,
         Committee on Environment and Public Works,
                    Subcommittee on Superfund, Toxics and  
                                      Environmental Health,
                                                    Washington, DC.
    The committees met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Frank Lautenberg 
[chairman of the Subcommittee on Superfund, Toxics and 
Environmental Health] presiding.
    Present: Senators Lautenberg, Inhofe, Carper, Boozman.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. The first thing I want to establish is 
that I am not Senator Boxer.
    [Laughter.]
    Senator Lautenberg. She is the Chairman, normally. But she 
could not be here, but she is here in spirit and very much 
supporting our interests and our effort on the Brownfields 
opportunity. So I thank you witnesses for being here. And 
Senator Inhofe is here, I know, as well.
    I welcome everyone to today's oversight hearing. We are 
going to focus, obviously, on the Environmental Protection 
Agency's Brownfields program. Brownfields are blighted 
properties that have been a drag on local economies because of 
contamination or the mere perception of contamination. Often, 
these are abandoned industrial sites where parents don't want 
their kids to play, and few businesses will take the chance to 
locate in one of these sites.
    Now, the EPA started its Brownfields program more than a 
decade ago to transform these community eyesores into community 
assets. Since then, EPA has cleared up more than 600 
Brownfields in communities across our Country, putting more 
than 20,000 acres back to productive use. Much of that is 
urban, but also in rural areas as well. And when you think 
about that kind of opportunity to have property available for 
community use, it is a wonderful gain.
    These cleanups have created more than 72,000 jobs, 
attracted more than $17 billion in private investment. Once 
Brownfields are rehabilitated, they often spark neighborhood 
revitalization, boost property values and make communities more 
attractive places to live, work and do business.
    In my home State of New Jersey, Elizabeth, a city in our 
State, used a Federal brownfields grant to help transform 
abandoned industrial land into new affordable housing. In 
Trenton, New Jersey, our State capital, they are using 
brownfields funding to clean up a site where lead acid 
batteries were once made and stored. When they are done with 
it, the property is safe and usable. Hudson County, one of our 
more crowded counties, is using Brownfields funding to attract 
new investments. As you will hear when we are joined by Betty 
Spinelli, Hudson County's Economic Development Chief, she will 
tell us about these new investments.
    Successful projects like these demonstrate why we should 
reauthorize the Brownfields program and invest more in it. 
Congress first authorized the Brownfields program in 2002. 
While the authorization ended 4 years later, Congress has 
continued to fund it because we recognize that it is good for 
ongoing business success. It is time to reauthorize the 
program, because we still have a lot of work to do, and a lot 
of opportunity to gain.
    There are 450,000 brownfields sites across this Country. 
The communities where these sites are located need help to 
reclaim them. We also should take this opportunity to 
strengthen the brownfields laws. For example, some have 
suggested that the law should explicitly allow EPA to award 
both assessment and cleanup grants at the same time, which 
conceivably could streamline the process and make sure that the 
resources reach communities faster.
    In addition, non-profit organizations want to compete for a 
wider variety of Brownfields grants. I believe that we have to 
do more to encourage renewable energy on Brownfields. It just 
makes sense to put new solar or wind facilities on properties, 
unused properties, blighted, that they might have been, rather 
than open space or sensitive lands. So I believe both parties 
can find the common ground that we need to reauthorize and 
improve the Brownfields program. The program is a proven 
success and a magnet for community investment. And we should 
not hesitate to renew it.
    I look forward to moving this issue forward in this 
Congress, beginning with today's hearing. And I am pleased to 
be here with a good friend, different perspective. My area is 
much more open and expansive than Senator Inhofe's.
    [Laughter.]
    Senator Lautenberg. I come from the most crowded State in 
the Country. And it is hard to make a turn if you are not 
looking where you are going.
    But here we are, Senator Inhofe.
    [The prepared statement of Senator Lautenberg follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    This will be a shock to a lot of you out there, and I hate 
to do it at this time in the morning, but Frank Lautenberg and 
I don't always agree.
    [Laughter.]
    Senator Inhofe. In this area, I think we do agree. Except 
for one thing you said just a minute ago on what they should be 
doing with property that come back. I think that should be left 
to the cities and the States to make determinations as to what 
is best for them.
    But I think this is one of the programs, and I have been 
very critical of the EPA, one that I think has worked real 
well. The Brownfields program is an example of a program that 
EPA administers which does increase economic opportunities. But 
there are many more opportunities for improvement, and I am 
pleased with the liability reforms that we passed in 2002. That 
was the Small Business Liability Relief and Brownfields 
Revitalization Act.
    However, more needs to be done on the liability front. 
Under currently law, if a city or municipality has acquired a 
Brownfields property prior to 2002, they are ineligible to 
apply for a Brownfields grant, unless they have performed ``all 
appropriate inquiry.'` And this means that properties that a 
city has acquired through no action of their own prior to 2002 
are ineligible to apply to the Brownfields program unless they 
are able to prove that they have provided ``all appropriate 
inquiry'` into the previous owner's use of the property.
    This can't be done in many cases. The end result is that a 
number of these properties sit stagnant and vacant because 
cities are unable to demonstrate that they have performed all 
appropriate inquiries, and thus they are unable to apply to the 
Brownfields program.
    We should allow these cities and local governments to be 
eligible to apply for the program and not require them to prove 
that they performed all appropriate inquiry, provided that they 
did not cause or contribute to the contamination. In other 
words, if this happens through no cause of their own, they 
should be able to do this.
    By providing this liability relief, we would bring a number 
of these vacant and stagnant properties into meaningful use. 
This in turn would create much-needed local jobs and provide 
new stream of potential revenue for local governments who 
already are short on revenues. Given our current economic 
situation, this is not the time to push for an authorization 
increase for the Brownfields program. We need to do more with 
less. One example would be to decrease the amount of funding 
that goes toward administrative costs, and redirect those funds 
to be spent on the ground.
    Although the EPA has made a conscious effort toward 
balancing rural and urban needs with the program, smaller 
communities, that is what we have in Oklahoma, smaller 
communities, and very rural areas are still in need of better 
access to this program. This is an area I would like to work to 
improve.
    Finally, I would like to extend a warm welcome to, on the 
second panel, one of our witnesses is the Mayor of Oklahoma 
City, Mick Cornett. He has done such an incredible job and he 
has a great story to tell us on how the Brownfields program can 
and does good work. Oklahoma City has been particularly 
successful in using that program to improve their community and 
increase economic opportunities for the citizens.
    I am not the only one impressed with the Mayor's work. He 
was recently awarded the USEPA's Phoenix award for Oklahoma 
City's work with the Dell Center project, a former landfill 
that has since revitalized and now employs a number of 
Oklahomans.
    Also, welcome Aaron Scheff, Brownfields Program Manager for 
Idaho.
    I think about what is happening in Oklahoma City. I was 
Mayor of Tulsa. At that time, I think most people would look at 
it and say, oh, Tulsa actually did a better job than Oklahoma 
City. These are the two largest cities in Oklahoma. But 
starting back, I guess it was Kirk Humphreys then Ron Norick 
then of course Mick Cornett, have come through and put this 
program together. When you go through the Oklahoma City area 
right now, Mr. Chairman, you are looking down at Bricktown, the 
use of the waterway in there, and a lot of this is tied to this 
program.
    So I congratulate Oklahoma City on the great work they have 
done. I hope that we will pay particular attention to Mick 
Cornett when he makes his presentation.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
    
    Senator Lautenberg. Thank you very much.
    Mr. Lloyd, we look forward to hearing from you. Mr. Lloyd 
is the Director of the Brownfields Program for the 
Environmental Protection Agency. In this role, Mr. Lloyd 
oversees EPA's efforts to review applications, issue 
Brownfields grants to communities, States and non-profit 
organizations.
    So Mr. Lloyd, we welcome you and you may begin your 
testimony now, please.

    STATEMENT OF DAVID R. LLOYD, OFFICE DIRECTOR, OFFICE OF 
BROWNFIELDS AND LAND REVITALIZATION, OFFICE OF SOLID WASTE AND 
    EMERGENCY RESPONSE, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Lloyd. Thank you. Good morning, Mr. Chairman and 
members of the Committee.
    My name is David Lloyd, as was said. I am the Director of 
EPA's Office of Brownfields and Land Revitalization in the 
Office of Solid Waste and Emergency Response. I am very pleased 
to appear today to talk about EPA's Brownfields Program. I 
would like to thank members of this Committee and the 
Subcommittee for their long-term bipartisan support of the EPA 
Brownfields Program.
    As you know, and as has been said, Brownfields are all 
around us, really, in the smallest towns and in the largest 
cities. Empty warehouses, abandoned deteriorating factories, 
vacant corner gas stations and junk-filled lots, they are often 
in town and city center locations, both in small and large 
cities. And they are very visible.
    But they are, and have the efficiency and benefit of often 
being located near existing infrastructure, such as road access 
power and other utilities. EPA's Brownfields program is able to 
provide resources for the assessment, cleanup, Revolving Loan 
Fund grants, technical assistance and job training that can 
help move these properties to productive use.
    Since the program's inception in 1995, as the Senator 
noted, we have continued to provide tools and have been able to 
help in the assessment, fund the assessment of 17,500 
properties, made over 24,000 acres ready for re-use, leveraged 
more than 72,000 jobs for cleanup and redevelopment, and 
leveraged more than $17.5 billion in economic development. 
Working with communities, States, tribes and other Federal 
agencies, we think the program has really become a coordinated 
national effort that is community-based, looking at the needs 
of the communities and not the desires of the Federal program.
    In addition to the grant programs, we conducted targeted 
Brownfield assessments and we fund those through contracts with 
both small and large businesses and inter-agency agreements. 
These single property assessments really help communities, 
particularly smaller and rural communities, to look at their 
sites and figure out what the next path forward. A good example 
is the Meridian Creamery in Idaho, where EPA founded a targeted 
assessment, and we are following that assessment. The property 
was redeveloped as a 100,000 square foot facility, used as the 
City's new municipal complex, that employees over 100 people.
    Last year, EPA also began a pilot program that provides 
research and technical assistance support for Brownfields Area-
Wide Planning. Brownfields Area-Wide Planning looks at 
individual Brownfield sites or collections of sites and helps a 
community decide what is needed to get those properties cleaned 
and back into re-use. They might be a neighborhood, a 
commercial corridor, a downtown district or a greenway. But 
they help them develop cleanup and re-use strategies.
    We had 23 recipients, including several small rural 
communities, that received this funding. Some examples would 
include a project, a large project we have ongoing in Tulsa, 
Oklahoma, which will focus on 69 Brownfields sites, but really 
will benefit a whole range----
    Senator Inhofe. Let me, without losing his time, ask him to 
repeat what he just said, because I was distracted by a 
staffer.
    Mr. Lloyd. I was, Senator, describing a program that we put 
in place last year, using our existing authority, called 
Brownfields Area-Wide Planning. What we are doing is funding, 
we are in a pilot phase now, but we will be moving forward with 
a new round. We selected 23 communities of many sizes, rural 
and urban, to help them plan around either a group of 
Brownfields sites or one large Brownfields site and look not 
just at cleaning up that one site, but looking at the 
connectivity to what infrastructure is needed, business 
planning, economic planning, to help revitalize that whole 
area.
    So for example, we have a project ongoing in Tulsa, 
Oklahoma, that is looking at 69 Brownfields sites in the 
northern part of that city. And really, they are touching a 
wide range of communities. Ranson, West Virginia, Kalispell, 
Montana, National City, California, Newark, New Jersey, and 
also tribal lands. We have a project on the Colville 
Reservation in Washington State, just to name a few.
    As other witnesses will point out that are on the second 
panel, States and tribes are critically important partners, and 
are at the forefront of Brownfields cleanup and redevelopment. 
The majority of Brownfields cleanups are supervised and 
overseen by State response programs. Since 2006, nearly 44,000 
properties have enrolled in State and Tribal Response programs, 
and more than 549,000 acres have been made ready for re-use 
through those programs.
    Additionally, the State and Tribal Response programs 
provide technical assistance.
    In 2012, EPA is going to continue to focus efforts on 
streamlining our grant application process, strengthening our 
State and tribal programs, piloting multi-purpose grants as 
were referenced, providing broader technical assistance and 
expanding land revitalization across the programs, all of the 
Office's programs.
    In closing, really our continued success will require 
collaboration among all levels of government, the private 
sector and non-governmental organizations. EPA will continue to 
implement the Brownfields program to protect human health and 
the environment, enhance public participation in the local 
decision-making needed to build safe and sustainable 
communities through public and private partnerships, and to 
demonstrate that Environmental cleanup can be accomplished in a 
way that promotes economic redevelopment.
    This concludes my statement, and I am happy to answer 
questions.
    [The prepared statement of Mr. Lloyd follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Lautenberg. Thank you, Mr. Lloyd.
    I asked a question about renewable energy products. Now, 
those sited on Brownfields locations can spur community 
development while cleaning up pollution and reducing our 
dependence on other fuels. As we consider reauthorizing the 
Brownfields law, what might we do to better encouraging using 
contaminated lands for clean energy production?
    Mr. Lloyd. First I would note, as you mentioned, there is 
nothing in the current statute that would certainly prohibit 
that end use, and in fact, we actively encourage renewable 
energy on Brownfields and other contaminated lands as a very 
viable and positive re-use. There is an initiative that the 
Office of Solid Waste is leading called the Repower Initiative. 
Essentially that provides funding and technical assistance to 
projects to help them see how renewable energy can be used. And 
many of those are Brownfields.
    A great example would be technical assistance that we have 
provided to help a community develop solar arrays on a 
landfill, and do that in a way that not only is protective of 
the remedy, but will produce the energy results.
    I think generally, as I have said in different forums, we 
like the community to decide what they need at a Brownfields 
site, and not to try to direct them toward any specific end 
use. But I think what we can do, Senator, to help expand this 
area that you have expressed interest in, and I think is a very 
positive area, is continue our technical assistance, I think 
strengthen it, and I think really we have to provide the kind 
of technical assistance to communities that help them solve 
some of the more complicated problems related to renewable 
energy. It is in some pats of the Country still a challenge to 
find connectivity to the grid and those things. I think that is 
where we could help, is by continuing to provide robust 
technical assistance on those projects.
    Senator Lautenberg. Good. Because I don't know how you 
measure the amount of contamination existing in a place like 
this. Is there an easier mark if it is going to be used for 
non-direct personal human use? If it is an energy site?
    Mr. Lloyd. Well, I think, as I understand your question, I 
think, this is one of the reasons I think contaminated sites, 
in many instances, do lend themselves so well to renewable 
energy uses. Because they can be protected from direct contact 
by large numbers of people, and still be providing a productive 
benefit for the community or broader.
    Senator Lautenberg. Funding for the Brownfields Program has 
stayed roughly flat since the program was first authorized. Are 
we turning away proposals that have merit as a result of lack 
of funding each year? Can you give any indication at all how 
many you have to say no to as a result of the limited funds?
    Mr. Lloyd. Well, first of all, I would just reiterate what 
I had said earlier, I think the funding that we are able to 
provide, and looks like in the near future we will be able to 
provide, is going to do the things we want to do in terms of 
supporting State and tribal programs, helping communities clean 
and redevelop these sites.
    The program is very popular, and I think part of the reason 
is because it really is a program where communities are sort of 
in charge of what they are doing. So it is somewhat over-
subscribed. We have roughly between 700 and 800 applications 
each year for our grant funding. And we typically award between 
200 and 300 grants, depending on the types of applications we 
get, and their specific funding level.
    We are continually thinking of ways that we can, like the 
targeted Brownfield assessment program, get resources out to 
communities that either aren't able to apply or aren't 
successful in applying.
    Senator Lautenberg. The estimates are that there are, you 
said this in your comments, 450,000 Brownfield sites across the 
Country. The number is hard to conceive of, 450,000 sites. Yet 
since the program's inception in 1995, only 17,500 sites have 
been assessed. What can we do to change the law to help EPA 
make properties safe and productive more quickly?
    Mr. Lloyd. I think one, that figure, 17,500 would be 
assessments that were completed, completely entirely with EPA 
funding. I think looking, and I referenced the State and tribal 
response program numbers, there are vastly more assessment and 
cleanup activity going on both at a State level as well.
    But I think that really, we are looking at some ways that 
we might make our grants more efficient to make it faster, both 
in the process by which we assess and evaluate grant 
applications and then also the process by which we get the 
money out there. That is a priority of my Assistant 
Administrators, that we move the money out as quickly as 
possible.
    So we do have some plans there to help do that.
    Senator Lautenberg. I am going to ask Senator Inhofe for 
his questions. But we will keep the record open and send our 
requests to you in writing and ask that you give us a prompt 
response.
    Mr. Lloyd. Yes, sir.
    Senator Lautenberg. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman. I am trying to 
think of ways that we might be able to, without expanding the 
funding for the program, get more from it. We have talked about 
it, and I mentioned this in my opening statement. I know that 
each year there is a conference called the Brownfields 
conference. And it costs about, some of them, in excess of $2 
million. I don't understand why, first of all, it is a good 
conference and I am all for it, it is well-attended and very 
popular. I support it.
    But I am thinking that we, since a lot of the stuff that 
you are doing is partnership type of thing, that we ought to be 
able to maybe have that program underwritten in the private 
sector. Have you thought about that?
    Mr. Lloyd. Yes, Senator, in a couple of ways. First, the 
program a few years ago moved away from the annual conference 
to an 18-month conference. But now we are actually going to 
move to an every 2-year conference. That is one thing we think 
will help.
    But second, we recognize also that while it is an extremely 
valuable training conference and it is a national training 
conference, we need to spread the cost of that more 
efficiently. So we are looking at, for example, I think a very 
modest, reasonable fee strictures that will still give the 
ability of non-profits and community groups and smaller 
communities to participate, but will spread the cost more 
appropriately.
    And also, we are in the process of, we will re-compete the 
grant that we used to provide our content management, look at 
how conference vendors and companies that come in to advertise 
there at the conference, that they pay a fair share. Because we 
see, we understand your concern and we are also under that 
pressure to make sure we reduce expenses of that kind.
    Senator Inhofe. Good. I think that is a good idea. But let 
me volunteer something I am willing to do.
    Prior, during the planning stage of your next conference, I 
would be willing to go to the private sector and enlist people 
who are willing to come in to promote this. I really believe we 
can get the entire conference paid for in the private sector, 
and I would be glad to assist in that.
    Now, the only other thing I would mention to you is, as I 
mentioned in my opening statement, in terms of the percentage 
of the program that is funded, that goes to administration, I 
understand about $24 million does out of a total, I hope my 
figures are right, out of a total of $165 million, which is 
about one-sixth of the total amounts going to the 
administration. I think that is a little bit too high in terms 
of percentage allocated for administration. Do you have any 
thoughts on that?
    Mr. Lloyd. Yes. Your numbers are basically correct, 
approximately correct. I think that one reason that 
administrative cost is higher than it might seem appropriate, I 
mean, just the machinery of accepting that many grant 
applications, not just in our assessment revolving loan fund 
and cleanup grant, but also job training grant and other 
competitions we have, there is a fair amount of labor. We do 
that internally and with assistance from contractor support.
    So a good part of the cost goes to things like that. But we 
also are looking at, we recognize too the need to reduce that, 
because every penny we spend on administrative costs is one 
less dollar of any that goes to a community directly. For 
example, the data that we collect is critically important. Our 
grantees are truly partners in that, in that all of our data, 
the data that I read off in my opening statement, comes from 
grants, grantees reporting their progress.
    So we have a system in place, a data base that collects 
that directly, which is not a typical way to get data, but it 
has worked very well. But we are really looking, and have 
looked last year, and continue to look this year, on ways to 
make that as inexpensive as possible.
    Senator Inhofe. I appreciate that, this day when we are 
talking about billions and trillions, this is nothing. I 
understand that. But I have seen in Oklahoma, for example, 
which you are going to hear from Mayor Cornett, some of the 
great things that can happen that really don't cost much money. 
I figure if we can squeeze a little bit and get one more 
project out there, it would probably be worthwhile. I know, Mr. 
Lloyd, that you want to do that and we will look forward to 
working with you on that.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Now we thank you, Mr. Lloyd, and I 
welcome our second panel.
    We will hear now from a range of experts who have 
significant experience with the Brownfields program. They 
include Mayor Mick Cornett of Oklahoma City, Oklahoma; Betty 
Spinelli from my State, my home State, Executive Director of 
the Hudson County Economic Development Corporation in New 
Jersey; Mr. Aaron Scheff, Brownfields Program Manager for the 
Idaho Department of Environmental Quality; Evans Paull is the 
Executive Director of the National Brownfields Coalition; and 
Mary Buckholtz, President of Environmental Consulting 
Solutions. Ms. Buckholtz previously worked at EPA to help 
establish the Brownfields program and now works in the private 
sector, identifying ways to use renewable energy on 
brownfields.
    We welcome all of you. I would ask Senator Inhofe if he has 
a special welcoming word for Mayor Cornett.
    Senator Inhofe. First of all, I think I stated that in my 
opening statement, but I would just say that he has done a 
miraculous job. And let me clarify something I said, because it 
was kind of off the cuff. Oklahoma City, any objective person 
would look at Oklahoma City and say, they have really done 
great things.
    As Mick knows, I used to use an airport that I am sorry 
they closed, it was called Downtown Air Park. And on my final 
approach, I always went over that area of Bricktown in the 
waterway there and the ball park. I have looked down and 
watched that develop, and it just has been amazing. I don't 
think there is any city in America that has done a better job. 
And a lot of it is due to our witness sitting before us, and I 
mentioned two of his predecessors who were also involved in 
that.
    I think that we, or that he and Oklahoma City provided an 
example of what we should all strive for. He has done a great 
job, and with that, I am delighted to have him as our witness 
before this Committee.
    Senator Lautenberg. Mayor Cornett?

 STATEMENT OF HON. MICK CORNETT, MAYOR, OKLAHOMA CITY, OKLAHOMA

    Mayor Cornett. Thank you, Senator. I appreciate the 
opportunity to testify before you today.
    My name is Mick Cornett. I am the Mayor of Oklahoma City 
and a trustee for the U.S. Conference of Mayors.
    I am pleased to be here to discuss the impact that 
Brownfields redevelopment has had on our city. We have been 
very successful in being able to utilize a lot of the EPA 
programs, including the revolving loan fund program, assessment 
grants, and we have used EPA fund to provide technical 
assistance. These programs have all helped us leverage 
additional funding, helped us create jobs and they have made a 
lot of improvements in our community.
    I am going to highlight a few of the examples. First of 
all, Oklahoma City has had a successful and recognized 
Brownfields program. We are the recipient of two Region VI 
Phoenix awards and a National Brownfields Renewal award. Our 
relationship with the EPA Brownfields program began in 2003, 
with a $225,000 cluster grant, which was used to reevaluate 
potential re-use options for four former Superfund sites.
    Our other early program involvement was with the Skirvin 
Hotel. This is preservation effort that has been really a 
poster child of the regional and national program. We used the 
Brownfields revolving loan funds in the amount of $717,000 to 
clean up the asbestos, which eliminated a substantial barrier 
in making the numbers work and allowing us to reopen that 
hotel. Cleanup was completed in 2005, the restoration completed 
in February 2007, and this week, the Skirvin is celebrating its 
100th anniversary as a property in Oklahoma City. But keep in 
mind, for 25 years it was shuttered until we got the EPA money 
and could work to reopen it.
    That restored Skirvin Hotel is celebrating its centennial 
this week. It serves as a model for successful public-private 
cooperation. There were $56 million in total funds, $22 million 
of which were public funds.
    Now, the revolving loan fund offer low interest loans to 
qualifying property owners for cleanup and remediation. This 
has been very helpful in our gap financing that traditional 
lenders won't risk funding. Since 2005, Oklahoma City has found 
three revolving loan funds grants that have been helpful. We 
have had supplemental funding for a little more than $6 
million.
    These funds have leveraged about $4.5 million in private 
funds for every Federal dollar spent. So the city has funded 
the following projects: the Dowell Center, which is just in the 
near north part of Oklahoma City. The loan total was $1.7 
million. We expect the private leverage to be a total of $8.25 
million. That building was built in 1926, but had been vacant 
since the early 1990's. It was purchased in 1996, but it had 
asbestos issues, and that abatement needed to take place before 
it could be renovated. Once the abatement was completed, the 
building is now being redeveloped. That cleanup alone created 
40 temporary jobs and the renovation is expected to create 
another 16 and a half construction jobs, which will generate a 
construction payroll of $4.5 million.
    We have also done a project at Oklahoma City Community 
College. The grant was $200,000. We expect the total of local 
dollars to be nearly a million. OCCC purchased that building in 
December 2008 and is renovating it to house the Oklahoma City 
Community College Capital Hill Center. That center will provide 
a quality educational experience to the city's Hispanic 
community. That cleanup has created 26 temporary jobs.
    We have also used assessment funds. Since 2006, we have 
been awarded five $200,000 community-wide assessment grants. 
With these funds, we performed about 60 environmental site 
assessments. These assessment dollars are often well-leveraged, 
and we have many examples documented within our written 
testimony that I have provided.
    Some of the assessments have been for properties acquired 
for major public projects, paid for through local bonds and 
sales tax measures. We have had some Core to Shore park 
acquisition properties. We had a fire station open up in the 
Bricktown area, as well as sites involving the Goodwill company 
and also the United States Postal Service.
    Other assessments have supported private development and 
non-profits, such as educational buildings, a faith-based 
charity organization and a hospital.
    I would like to speak briefly about the national impact of 
Brownfields. The Brownfields laws had a positive impact 
throughout the Country. In a survey done by the U.S. Conference 
of Mayors, 84 percent of the cities that responded said they 
have successfully redeveloped a Brownfields site. And 150 
cities reported that their 2,100 sites have been redeveloped 
and 187,000 jobs have been created.
    In every survey that we have done, the top three 
impediments for redevelopment were the same: a lack of cleanup 
funds, the need for more environmental assistance and liability 
issues.
    Bringing some ways that we can improve the program, the 
Brownfields law and program has a proven track record of 
leveraging investment and creating jobs and of course, 
improving the environment. However, there is additional work 
that we would like to see done. The GAO estimates there are 
about 400,000 to 600,000 Brownfields sites in the United 
States.
    So the challenge that a lot of communities face now is that 
a lot of the easier sites have already been developed, and the 
economic conditions for both the public and private sector is 
challenging. The U.S. Conference of Mayors and the Brownfields 
Coalition believe that there are some minor changes that would 
allow some additional redevelopment and economic growth that 
would be realized. We would like to see full funding of the 
Brownfields program, we would like to see the creation of a 
multi-purpose grant, we would like to see the cleanup grants 
amount increased. And we would like to clarify the eligibility 
of publicly owned sites that were acquired before 2002. I am 
hoping in some of the question and answer period we can 
probably get into that.
    In closing, I would like to thank the Committee for 
allowing me to testify today. We really believe that 
Brownfields is a win-win situation for the local government, as 
well as the Federal Government. We believe it cleans up the 
environment, it is pro-business, it is pro-community. I thank 
you for the opportunity to speak about the reauthorization 
opportunities.
    [The prepared statement of Mayor Cornett follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Senator Lautenberg. Thanks very much, Mayor.
    Now we will hear from Ms. Betty Spinelli. She is the 
Executive Director of the Hudson County Economic Development 
Corporation, and has seen some awards for projects that she has 
managed in Hudson County. Her program was awarded the New 
Jersey Department of Environmental Protection's first 
Environmental Excellence award. We congratulate you for that, 
and welcome you here and await your testimony.

  STATEMENT OF ELIZABETH SPINELLI, EXECUTIVE DIRECTOR, HUDSON 
            COUNTY ECONOMIC DEVELOPMENT CORPORATION

    Ms. Spinelli. Thank you, Senator, and thank you for the 
opportunity to come and speak today about the Brownfields 
program.
    In Hudson County, there are over 600,000 people living in 
46.6 square miles. With over 1,000 known contaminated 
Brownfields sites on our local EPA website, that gives us 21 
sites per square mile. There is literally a Brownfield site for 
everyone that lives in Hudson County.
    And the tragedy of Brownfields is, we are always learning 
more and more about sites every day. It is not like there is a 
definitive number that we can just go cleanup and then walk 
away and say, job well done. It is as we discover them we must 
take care of them.
    In Hudson County, we were lucky enough to receive the first 
Brownfields grant back in 1998. And we had the opportunity at 
that time, being a not-for-profit and not a municipality, to go 
out to the municipalities and offer our help to clean up some 
sites at a time when people were not even speaking about 
Brownfields. We put together a Brownfields work force group. 
That group is still together today and still working toward 
Brownfield cleanup. It includes bankers, developers, educators, 
individuals who are just interested in Brownfields. And it is 
open to the public. We get every kind of person from every walk 
of life who wants to come and find out more about Brownfields 
funding, Brownfields sites and how to master the challenges 
that are Brownfields.
    We have in fact mastered it to some degree, not as well as 
some other towns. But we have mastered it to the point that in 
Harrison, New Jersey, we put up a hotel, which was one of the 
first hotels in stagecoach days, a Hampton Inn and Suites. And 
the same time, there was no other Development going on in the 
town of Harrison. Since then, there has been a 257 
redevelopment area of Harrison, New Jersey where many old 
factories lay abandoned for years, were now taken down, and Red 
Bull Stadium was put up, a soccer stadium that now attracts 
large numbers of people from all over the region to come and to 
watch games and to use it for open space.
    The leveraging of funds for that stadium alone was $200 
million toward Development of that, private money. So the 
leveraging of funds against the Brownfields money is ten-fold. 
For every dollar spent, we end up receiving more money 
privately for the development of the area. In the area right 
now, we have housing going up. Jobs have been created at the 
hotel. There were 45 full-time jobs, full-time positions. That 
site laid fallow for over 30 years. So once where you had a 
fenced site on the waterfront you now have a hotel that is 
thriving and welcoming and has contributed tax revenue as well 
as major jobs in an area that is so lacking in jobs at the 
moment.
    We also had the opportunity to work with the town of 
Kearney to put up affordable senior housing. In that town, 
unfortunately, there was no opportunity for affordable senior 
housing. Now seniors do not have to leave the town that they 
love in order to live the rest of their lives. They now have a 
place where they can go and call their own that is an 
absolutely beautiful situation. It has a view, a vista of New 
York City. When you pass there at night, it is not uncommon to 
see many of the residents sitting out on what we term in Hudson 
County a stoop and having the camaraderie of friendship and 
knowing that they are safe in a good environment.
    We were lucky enough to win the first ever Environmental 
Excellence award, Senator, and we won it for open and effective 
government. We won it because we are inclusive of the 
communities around us. We are very sensitive to the fact that 
the people in the town want to know what is going on. We host 
many open public meetings. That had been one of the suggestions 
in working with the EPA. They have locked step with us, been 
there every moment, encouraging, educating and helping us. It 
has been a wonderful collaboration.
    The EPA has done more to help us find economic ground to 
stand on, and I say that in the best possible light. Because 
without those funds, all the mayors would be glad to say, there 
but for the funding from the EPA, many of the projects that you 
are hearing about would never have been done.
    I thank you for your time.
    [The prepared statement of Ms. Spinelli follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Senator Lautenberg. Thanks very much, Ms. Spinelli. I 
hasten to point out the fact that in our densely populated 
State, one of the most densely populated counties is Hudson 
County. But it had a wonderful history and it was the beginning 
of economic development of New Jersey, and the east coast, the 
harbors, the transportation needs, et cetera, just created that 
place where lots of people wanted to live and work and so 
forth. And the problems became one of lots of abandoned sites, 
as a result of companies having been there so long and finding 
better or newer places to go.
    So it is good to hear your report, Ms. Spinelli, and we 
welcome you.
    Mr. Scheff, from the beautiful State of Idaho. It is hard 
to imagine Idaho, with its expansive mountains and forests, and 
the natural beauty, that there are brownfield sites there that 
need attention. Please, give us your testimony.

 STATEMENT OF AARON SCHEFF, BROWNFIELDS PROGRAM MANAGER, IDAHO 
              DEPARTMENT OF ENVIRONMENTAL QUALITY

    Mr. Scheff. Chairman Lautenberg, Ranking Member Inhofe, and 
Senator Boozman, thank you very much for your invitation to 
speak here today. I am Aaron Scheff, I manage the State of 
Idaho's Brownfield Response program. And I truly do appreciate 
the opportunity to present a rural State's perspective on 
implementing the Brownfields program in small communities.
    Since late 2003, our program conducted assessments and 
cleanups at over 100 properties in dozens of rural communities, 
making thousands of acres ready for redevelopment, ultimately 
leading to community revitalization and job creation. We helped 
rural communities turn landfills and abandoned mines into parks 
and trails, a wood mill into a water park, a historic grain 
silo into a performing arts theater, a historic laundry into an 
events center, and a methamphetamine lab in a former Methodist 
church into a children's arts academy, among many other 
projects.
    These efforts led to job creation, community development 
and protection of human health and the environment. There are 
two main sources of EPA Brownfield funding available to Idaho 
stakeholders. Those are the EPA competitive grants and the EPA-
funded State assistance grant, which funds our program.
    There are also two worlds in brownfields programs. There 
are the rural communities and the metropolitan areas. In our 
experience, State assistance grants are of greater benefit and 
accessability to rural communities seeking to assess and 
cleanup brownfield sites.
    There are 39 metropolitan areas in the United States with 
populations greater than the State of Idaho. These areas, with 
their staff grant writers, grant managers, and environmental 
experts, are competing for EPA grants against rural communities 
without the same level of staffing or experience. Absent the 
State's help in applying for and implementing these competitive 
grants, small communities either don't apply for the grants or 
become completely over-burdened trying to manage them.
    For rural States, the expertise needed to implement the 
Brownfield program truly does reside at the State level. 
However, State programs are effectively losing Federal funding 
every year as more participants apply for the same source of 
funding. The statistics show that rural States and communities 
are being left out of the competitive grant award process. When 
you consider, of all EPA competitive grants awarded each year, 
approximately 50 percent of those awards are made in EPA 
Regions I and V alone, predominantly in metropolitan areas.
    EPA Region X on average receives 4 percent of the 
competitive EPA grant awards annually, despite comprising over 
25 percent of the United States' land mass. Rural communities 
need Brownfield funds, they just can't compete for them under 
the current system. Instead, rural communities turn to our 
State program for assistance. Our program is able to assess 
properties in approximately one-third the time and at one-third 
the cost when compared to an EPA competitive grant. We can 
remove environmental barriers to redevelopment with a total 
expenditure of generally under $50,000, depending upon the 
site. These costs would largely be unattainable to most rural 
communities due to their limited resources, and most of the 
sites we address would not even be able to successfully compete 
in the EPA grant competition.
    It generally takes two to 4 years to complete an EPA 
competitive grant project from application until final report, 
and at least 300 hours of staff time to manage. Our State 
Brownfields program completes brownfield assessment projects in 
under 6 months from the time we receive an application until we 
deliver a final report, with no burden on our local 
communities.
    If you can imagine shepherding the exact same project 
through the EPA competitive grant process and Idaho's 
Brownfields program simultaneously, the result would be that 
our State-led project would reach completion before the 
competitive grant proposal was even selected for funding, if it 
were an EPA grant.
    While the current allocation of Federal funding for State 
Brownfield programs remains static, the addition of new States 
and tribes receiving EPA assistance is increasing. The result 
is that our annual State assistance funding is being 
effectively reduced. This reduction is negatively impacting the 
amount of direct assessments and cleanups we perform for rural 
communities who are not able to compete for funds on the 
national level.
    There is a solution to this dilemma without the need to 
appropriate additional funding at the Federal level. Funds can 
be moved from the EPA competitive grant program into the EPA-
funded State assistance grants without a change in the 
Brownfields law or an increase in total appropriation. 
Utilizing some funds from the competitive grants to stabilize 
State assistance programs will ensure that we can effectively 
target and directly assist rural communities with assessments 
and cleanups.
    Based on the current performance of Idaho's Brownfields 
program, such a shift in funds would be bargain for taxpayers, 
given our performance to date, and would represent more 
Brownfield funds dedicated to redevelopment projects on the 
ground, rather than administrative costs.
    This has been a great program. It has been a great program 
for Idaho, it has been a great program for Alaska, Washington 
and Oregon, states that I represent on the Oswomo.
    [phonetic] Brownfields Task Force. It has been an excellent 
collaboration with EPA and our local communities, and I do 
think that there are some ways that we can tweak the law to 
increase the effectiveness and the efficiency of the program. I 
really look forward to seeing what the Committee comes up with 
during this reauthorization process.
    Thank you, and I of course welcome any questions.
    [The prepared statement of Mr. Scheff follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Lautenberg. Thank you.
    Mr. Paull, we ask you now to give your testimony, please.

   STATEMENT OF E. EVANS PAULL, EXECUTIVE DIRECTOR, NATIONAL 
                     BROWNFIELDS COALITION

    Mr. Paull. Good morning, Mr. Chairman and members of the 
Committee. My name is Evans Paull, and I have the privilege of 
speaking to you today on behalf of the National Brownfields 
Coalition.
    The National Brownfields Coalition represents national, 
State, local and public, private and non-profit organizations 
that share the common goal of promoting brownfields 
redevelopment as a means of achieving community economic 
revitalization, sustainable growth and development, and the 
environmental restoration of land. Some of our diverse national 
members include the U.S. Conference of Mayors, Smart Growth 
America, NAIOP, the Commercial Real EState Development 
Association and the Trust for Public Land.
    I wanted to call your attention to several Brownfields 
community turnaround projects that have been carried out in 
some of the States that are represented on the Committee today. 
There are two recurring themes that I want to stress. First, 
EPA Brownfields funds, although modest in the larger picture of 
multi-million dollar redevelopment projects, are often eh first 
funds in to help communities lay the groundwork for turning 
blighted, contaminated properties into new community assets. It 
would be hard to overState the importance of these critical 
resources.
    The payoffs from these modest investments in leveling the 
playing field are enormous, because it is not just about 
cleaning up and redeveloping X, Y and Z sites, it is also about 
enabling communities to reposition their economies, taking the 
failed industries of the past and restoring those sites to 
enable future growth and improved quality of life.
    Second, I want to emphasize that it actually makes perfect 
sense for Brownfields investments in the middle of a real 
eState recession. Public expenditures and site assessments and 
cleanups are far-sighted investments in future responsible 
growth. More Brownfields sites will be development-ready and 
future growth can be steered to land where infrastructure is in 
place, existing communities can be revitalized and the negative 
externalities associated with sprawl can be avoided.
    To illustrate, in Omaha, Nebraska, EPA site assessments of 
three key waterfront properties have paved the way for 750 jobs 
and $140 million in new investment, including the Gallup 
Corporation's world operational headquarters and a riverfront 
trail that will enable local populations to enjoy 64 miles of 
newly accessible riverfront property.
    In Little Rock, Arkansas, an EPA site assessment of the 
Union Pacific rail yard near downtown paid dividends in 2006 
when Heifer International, a non-profit international anti-
poverty organization, chose to locate their world headquarters 
on a 4.2 acre site, bringing 225 jobs and 225,000 visitors to 
Little Rock.
    In New Orleans, Louisiana, an EPA site assessment helped 
unlock the hidden potential of the Falstaff Brewery, which had 
been vacant for 30 years. The dilapidated property was 
transformed into 147 mixed income apartments in 2008. This 
pioneering investment helped lead to the revival of the Tulane 
Avenue Corridor as more redevelopment projects totaling 700 
units took form between 2008 and 2010.
    These are three examples where EPA investments have been 
instrumental in transformative redevelopment projects, helping 
communities achieve a new vision for outmoded industrial 
corridors. But as important as that point is, the takeaway I 
want to stress is that in case, the EPA funds were injected 
several years before the actual redevelopment. This reinforces 
the previous point that we have to keep making these 
investments, even in an economic slowdown. Then when the 
economy picks up, we will have development-ready sites and the 
reward will be community-altering projects like Heifer 
International, the Gallup headquarters, and the Falstaff 
Brewery.
    These projects are just a few of the Brownfields 
investments that are replacing lost jobs and revenue with 
vibrant new uses onsites where closed industrial plants have 
left a legacy of blight and contamination. We strongly 
recommend that Congress reauthorize the program; however, 
reauthorization represents an opportunity for improvement. Many 
of the other panelists and Senator Lautenberg as well have 
mentioned some of those improvements and I won't repeat them 
here, since I am out of time.
    We look forward to working with the Committee as we move 
forward with reauthorization.
    [The prepared statement of Mr. Paull follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Senator Lautenberg. Thank you very much.
    And apologies, too, to Ms. Buckholtz. I mistook your first 
name for being Mary, but Marjorie sounds good with Buckholtz.

    STATEMENT OF MARJORIE WEIDENFELD BUCKHOLTZ, PRESIDENT, 
               ENVIRONMENTAL CONSULTING SOLUTIONS

    Ms. Buckholtz. Thank you. If we could get something going 
on reforming Brownfields, I will change my name to Mary.
    [Laughter.]
    Ms. Buckholtz. Good morning. Senator Lautenberg and members 
of the Committee, thank you for the opportunity to discuss 
EPA's Brownfields program. As one of its founders, it remains a 
subject close to my heart.
    During a 25-year EPA career, I was lucky. I was often sent 
to communities where EPA had the opportunity to effect the most 
significant change. I saw that Superfund's prioritization of 
worst sites first meant that lesser contaminated sites fell 
outside Federal purview. Some abandoned properties fell below 
the cut line for Superfund or State programs, and yet they were 
too polluted to attract investment. EPA needed a new approach, 
so we began thinking about tailoring a program that had 
assessment, cleanup and redevelopment elements to serve across 
a range of rural, urban and tribal communities. That was the 
start of the Brownfields program.
    At its core was the emphasis that local solutions work best 
under local stewardship. The new model that was born was 
different from Superfund in several important ways. First, many 
of the sites were perceived to be contaminated rather than 
actually contaminated. Seed money for local site assessment 
solved that mystery. Eventually, one-third of the sites on the 
Superfund inventory were proven not to be contaminated at all 
and were ready for re-use.
    There is still a need for a strong Superfund program for 
sites with major technical issues and high levels of 
contamination. The Brownfields program complements those 
efforts.
    EPA's job training program in the Brownfields program, from 
the very earliest beginning, emphasized local employment. When 
the program began, I was shocked that communities needed to 
ship in workers because they lacked people with the proper 
training. In response, the Brownfields Job Training program was 
created, in concert with local community colleges and work 
force development groups. As you heard from David Lloyd, this 
successful program continues and thrives. This year, it has 
been expanded to cover many of EPA's cleanup programs. I 
respectfully urge the Committee to protect the viability of 
this program.
    The Brownfields program has flourished in ways that would 
have been unimaginable to me 20 years ago. But there is still 
work to be done. To improve this program, I would respectfully 
recommend several things in addition to Brownfields job 
training. David Lloyd talked about area-wide planning, and I 
would like to emphasize its importance.
    Non-profit eligibility for all types of Brownfields grants 
is also very important. Because in many communities, especially 
small towns and rural areas, non-profit development 
corporations and community development corporations drive the 
economy and carry out redevelopment.
    EPA launched the Repowering America's Land program in 
September 2008 to encourage the siting of renewable energy 
facilities on current and former contaminated lands across the 
Country. I know that I am preaching to the choir, Senator 
Lautenberg, when I say that language for repowering on 
Brownfields sites is critical for reauthorization. Your 
forward-thinking proposal last year on the Energy Bill is 
exactly what is needed to jump start productive use of 
Brownfields as renewable energy facilities in the U.S.
    My recent consulting work with Brownfields LLC, a 
Massachusetts solar firm, has focused on the conversion of 
community liabilities, like closed landfills, into assets. From 
this experience, I have seen that repowering works and needs to 
be emphasized and continued.
    I would like to close with just a couple of lessons 
learned. The cooperation evidenced on this Committee is a 
heartening reminder of Brownfields' bipartisan popularity. This 
spirit will be the key to successful reauthorization and an 
effective program. Second, leveraging and partnerships are at 
the heart of this program. There have been attempts to make it 
a block grant program, which would have destroyed our efforts. 
It works because it provides technical support and leverages 
local resources.
    And third, please remember, real people thrive or suffer as 
a result of our actions. Brownfields began to extend hope and 
prosperity to those unlucky enough to live and work near 
contaminated sites. Countless citizens of once-forgotten 
communities have benefited from these efforts. We must resolve 
not to forget them again.
    Thank you.
    [The prepared statement of Ms. Buckholtz follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Senator Lautenberg. Thank you very much.
    We hear a resounding round of applause and congratulations 
for the Brownfields program altogether. I thank you for your 
encouragement, because I believe it is so essential that we get 
on with doing what we can to make these sites available for 
community use and for the well-being and health of citizens in 
the area. So as Ms. Buckholtz said, Senator Inhofe, that this 
shows bipartisanship at its best. So I guess we ought to say 
there are other Brownfields beside those we heard about that we 
ought to be able to clean up and get going on with, too.
    Senator Inhofe. Sure.
    Senator Lautenberg. I ask the witnesses who are here today 
from across the political spectrum and from States and local 
governments, non-profits, private sector, and it is amazing 
when one hears the universality of interests in States that are 
highly populated to less populated, from the urban setting to 
the more rural kind of thing. And when we think of some of the 
most beautiful parts of our Country, we think always of the 
mountains and the lakes and the forests and all of those 
things. But their lies Brownfields sites that are problems and 
could be used effectively in all States, if we can make the 
program generally more available and with more funding.
    Just going down the line, we will start with the Mayor, do 
you believe that, the question has almost been answered, about 
that EPA's Brownfields program has provided the kinds of 
benefits that really matter and ought to continue and be 
expanded if possible?
    Mayor Cornett. Yes. It has made a remarkable difference in 
Oklahoma City. If you could see the Skirvin Hotel, which was 
built a 100 years ago this week, and shuttered for 20 years 
with really no hope of ever being able to be reopened without 
some level of government assistance, we used Brownfields money 
to get in there and help close that gap.
    We had an environmental site along our river, which 60 
years ago had been a city dump. We were able to address the 
environmental needs there, and currently Dell Computer has 
built a campus with 1,500 employees. And we have future needs 
down the line. So we have success stories to tell you about, 
but we also have a number of sites that we believe with some 
more additional help could really improve our Nation's economy.
    Senator Lautenberg. Anybody disagree with that? No?
    Ms. Spinelli, EPA estimates that Brownfields projects raise 
the value of surrounding properties by 2 to 3 percent. I think 
that is fairly marginal. Maybe by twice its value or three 
times its value as it sits there forlorn and abandoned. DO you 
agree with that, the value improvements?
    Ms. Spinelli. Totally, Senator. In Hudson County, and I am 
sure you know this, we saw sites that laid fallow for 30, 40 
years. And with the EPA money being able to go in and do the 
assessments, we were able to attract developers to sites that 
they would have never considered in the past. So the moneys 
that have come in, the amount of money that has been leveraged 
between the Brownfields assessment moneys and the moneys that 
have come in from developers and putting these sites back to 
good, productive use is totally immeasurable.
    But I do want to reiterate what Marjorie said. Lest we ever 
forget that there are people, citizens who are living around 
all parts of the Country, whether it be Hudson County or in the 
Midwest, people need to be thought of in this process. Because 
it is very important that our citizens be entitled to a 
healthy, safe environment to grow and to have their children 
grow up in. It is a scourge on our cities and our areas to have 
these brownfields sites be there just fenced in behind bars and 
not be put back to good, productive use. It is very important 
that the EPA continue to put these programs forward.
    And we all realize, in these hard economic times, it is 
very difficult to sit here and say, don't give it more money. 
Give it all the money you can. Because this doesn't go to any 
one particular group. This goes to help strengthen America and 
bring our Country and all our communities back to good, 
productive use, bringing in jobs, making beautiful sites that 
were once wonderfully used back into good, productive use 
within the communities.
    Senator Lautenberg. Thank you.
    Ms. Buckholtz, in short form, how might current law be 
changed to better promote renewable Development?
    Ms. Buckholtz. I have a lot of thoughts on that, but only 
30 seconds. So I will tell you, the first thing that I would 
recommend is working closely with the Energy Committee to 
create a renewable portfolio standard that is consistent across 
the Country. That is the single most important thing that would 
drive redevelopment of solar onto Brownfields sites.
    And the second thing, you mentioned in your bill last year 
triple credits. That would be a triple win. That would be more 
than enough to get people really investing in these sites.
    The second thing is to press for extension of Section 1603 
of the Energy Bill. But I would adjust it to be extended solely 
for those properties to incentivize utilities to work on 
contaminated lands. Thirty percent cash grant incentives for 
new repowering projects have a huge potential to drive re-use.
    The last thing I would just say is that the EPA, in this 
economy, is not expecting a broad infusion of funds. The 
Brownfields program was built on doing more with less. A steady 
State budget that would emphasize leveraging and the new 
initiatives would build repowering to a new level without a 
major budget increase.
    Senator Lautenberg. Thank you very much.
    Senator Inhofe, I owe you a couple of minutes, Jim, which 
you can easily recapture.
    Senator Inhofe. Thank you, Mr. Chairman. It is my hope that 
we don't' turn this successful program around into a program to 
enhance green technology and all this stuff. It is working well 
now, let's don't mess around with it.
    Let me ask you first of all, Mr. Scheff, you would be the 
one, I think, who would be responding to one of the concerns I 
mentioned in my opening statement, that is, Oklahoma has a lot 
of the small, rural communities. And have you, I had to leave 
during part of yours, but I did read your written statement. Do 
you have any comments on how we could enhance this program in 
terms of using a greater amount for the smaller, rural 
communities?
    Mr. Scheff. Senator, yes, I do have some thoughts on that. 
For one thing, I need to point out that for every EPA 
competitive grant that is awarded to a small community, and it 
does seem to skew more toward metropolitan areas, but these 
rural communities don't have staff grant writers, they don't 
have grant managers, they don't have experts in Brownfields law 
or guidance.
    They have to come up to speed very rapidly on all the 
different Federal requirements that are tagged under these 
grants, procurement, Endangered Species Act, National Historic 
Preservation Act compliance, a myriad of things that these 
folks have A, never heard about before and B, don't even know 
where to go to get assistance. They immediately go to the 
State, which is great, that is part of our role, is to assist 
these folks.
    But for us, it makes a lot more sense, when we have the 
content and the field experts at the State level through our 
State assistance grant program, we can crank these things out 
and really get into the communities, do outreach, help them 
figure out the scope and nature of their programs and projects, 
and go in and quickly and efficiently remove the environmental 
barriers to their project.
    Senator Inhofe. Can you not do that now?
    Mr. Scheff. We can, Senator, but the problem is that year 
to year, additional States, additional tribes, additional 
territories, are asking for funding from the same pot that we 
get our funding from now. That funding source doesn't go up or 
down, it stays the same. So as more people come in, our funding 
is reduced.
    To further complicate that, the amount of site-specific 
assessment work that we are able to do currently through our 
grant is limited to 50 percent of the grant itself. So as that 
expenditure shrinks, the amount of money that we can spend on 
the ground in these small communities shrinks as well.
    Senator Inhofe. I appreciate that. And Mr. Chairman, I have 
nothing against professional grant writers. I am saying, when 
you go into one of my small communities in Oklahoma, and they 
talk about how do you do this and how do you put this together, 
yes, they do have access to the State. We are going to be 
working with them to try to get more help for them. But they 
will say, we are paying, and to them it is an astronomical 
amount of money you pay to someone to do this, and frankly, 
they don't have it.
    So what I would like to have you do, for the record, is to 
write down some recommendations that you could make in this 
program that would allow easier access to the small 
communities. Why don't you do that just for the record for us?
    And the rest of my time, Mayor Cornett, I just wish, Mr. 
Chairman, that you could come to Oklahoma, stay in the Skirvin 
Hotel. Now, New Jersey is not like Oklahoma. Something in 
Oklahoma that is 100 years old is ancient. In New Jersey, it is 
new.
    Senator Lautenberg. Notice how he glances at me as he says 
that.
    [Laughter.]
    Senator Inhofe. But the Skirvin Hotel, I can remember when 
I was in the State legislature, that was many years ago, and it 
was a palace. Of course, it deteriorated over this period of 
time. And they did a masterful job of putting it back together 
the way it was originally. We are doing the same thing in Tulsa 
with the Mayo Hotel.
    And it is just really, when you see the things they have 
done in Oklahoma City, and that is what, I only wish that 
during your presentation we had some big pictures to hold up. 
That would better show the before and after contrast of what we 
have.
    I guess I would like to ask you, is there anything that we 
would be able to do, when I pointed out the problem of the pre-
2002 problem that we had, is there anything in your city, in 
Oklahoma City, that you would not be able to do with that 
restriction that is there?
    Mayor Cornett. We do have a number of sites that were 
acquired prior to the 2002 legislation. I can think of one site 
specifically at Northeast 4th and Loddy, which would be an 
under-performing section of our city, that would fall into the 
category of a site that would need some assessing at the 
Environmental issues, and it is probably right for 
redevelopment if we had this type of enabling legislation to 
allow us to go in there and work on it.
    Senator Inhofe. OK, that is good. I think, Mr. Chairman, we 
ought to really look seriously at that and see what obstacles 
are there to keep us from doing that and maybe correct it. I 
think the Director, who was on the first panel, would probably 
agree with that.
    Last, in the time that I have, Mick, when you look at Dell 
City, Bricktown, the canal, the Skirvin Hotel, all these 
projects that you talked about that were so successful, have 
you put an employment figure down that would cover these as to 
how employment has been enhanced as a result of that? I have to 
say that we are fortunate in Oklahoma, our unemployment rate is 
5.5 percent. We are very fortunate with that, I understand 
that. But how has this enhanced our employment situation?
    Mayor Cornett. I don't have a number for you, and I have 
asked my staff to try and answer that question specifically. I 
can tell you that we have the lowest unemployment in the United 
States among large metros with the 5 percent flat.
    Senator Inhofe. Why don't you do that, and send it for the 
record, in writing, so I can use that up here in trying to help 
sell this very successful program?
    Mayor Cornett. I would be glad to, Senator.
    Senator Inhofe. Thank you. Thank you, Mr. Chairman.
    Senator Lautenberg. Thanks very much. Despite the fact that 
you have the good fortune to have that kind of unemployment 
rate, nevertheless, Mayor, you can use help in the Brownfields 
program and extend job opportunity and economic opportunity for 
your city and your State?
    Mayor Cornett. Absolutely.
    Senator Lautenberg. That is a noteworthy thing in this 
environment.
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman, and we appreciate 
all of you all being here. The Federal and State Brownfields 
program really has been very successful. I think we all agree 
with that. We appreciate your being here to help us sort out 
some of the problems that we need to fix, perhaps in the 
future, as we reauthorize. The Arkansas Department of 
Environmental Quality administers it in Arkansas. You mentioned 
the great job that they had done with the Heifer program in 
Little Rock. We have another, I think the most recent one that 
is going to come online is an area in downtown Hope, Arkansas, 
where they are going to very soon, I think within the next year 
or so, have a charitable clinic that will be at that site.
    So there is really just a lot of positive stuff that is 
going on as a result of the program.
    I would like to ask you, Mr. Scheff, why do you feel that 
funds should be moved from the EPA competitive grant program 
and into the State assistance grant programs?
    Mr. Scheff. Senator, simply put, our smaller communities, 
and we are talking about communities largely under 10,000 
people, simply they don't have the capacity to look at and 
understand the scope of the 53-page competitive grant guideline 
booklet. A lot of the concepts that are scored as part of the 
competitive grant systems, they don't necessarily understand 
how to answer. A lot of the things that are asked for, for 
instance, support from community-based organizations, 
information on disease registries, things like that, just do 
not exist in those small communities.
    Additionally, a lot of the projects that they are involved 
in are fairly small projects. They may only yield one, two, 
three, four jobs. But 4 jobs in a town of 3,000 people is 
incredibly significant. I think a lot of times EPA grant 
reviewers are looking at projects in major cities of maybe a 
million and they say, oh, this is going to get us 50 jobs. But 
when you crunch the numbers, the 50 jobs in a 1 million person 
community is not nearly as significant as 5 jobs in a 2,000 or 
3,000 person community.
    Simply put, it really does come down to capacity. Most of 
the folks running these small governments actually have real 
jobs, jobs that they go to, Wal-Mart, mowing lawns, whatever. 
And then they come back to the city at night and they are the 
treasurer, they are the clerk, they are actually help perform 
the city functions while they are not working. They don't have 
the many, many, many hours that you have to put into applying 
for and managing these grants.
    Senator Boozman. I think you make a very good point. And 
that point is being made over and over again. I just want to 
kind of reiterate it.
    Can you tell us perhaps if we did that, you are not asking 
for an increase in appropriation, you are just asking for the 
shift of funds, can you tell us specifically what kind of, you 
mentioned jobs, can you tell us some specific examples of what 
creates those five jobs that would come about as a result of 
doing that?
    Mr. Scheff. Absolutely. I can give you a specific example 
on a project we just finished. It was a relatively inexpensive 
project, it only cost us $30,000 to go in and assess and do a 
targeted cleanup at an old gas stationsite. The folks purchased 
the site, it was a site that had been abandoned for years, was 
no longer on the tax rolls, so it wasn't paying any property 
taxes, nobody was working there.
    But some folks went in, they purchased the site and they 
opened it up as, it is kind of a funky place, but it is a 
combination bakery, cafe, plus photography studio. So you go 
there and people have their artwork out and every month it sort 
of circulates out, there are different people who can come in 
and have their artwork purchased. There is someone working the 
counter, there are a couple cooks at the bakery, and then there 
is someone who is always in the photo shop part of the 
establishment, doing either digital or old school darkroom 
photography. But it works.
    Senator Boozman. Sounds like there is a little something 
for everybody there.
    Mr. Scheff. Yes, Senator. And it is also in a community of 
5,000 people where there is not a lot of opportunity for 
photography clubs and things of that nature. So it really has 
become an interesting kind of place for people to congregate. 
And total employment, five full-time employees work there.
    Senator Boozman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Senator Lautenberg. Thank you all very much for your 
testimony. While we kind of joked for a couple minutes about 
the fact that we are agreeing, it shows you the power of the 
value of the Brownfields program.
    Now we call on Senator Carper.
    Senator Carper. Thanks very much. Thanks for holding this 
hearing.
    Mayor Cornett, could I ask you a question? Thinking of past 
mayors of larger cities in Oklahoma, have any of them ever 
turned out well? Can you think of any who ever amounted to 
much?
    [Laughter.]
    Mayor Cornett. I am fortunate to have a long string of 
promising mayors that preceded me, absolutely.
    Senator Carper. How about over in Tulsa?
    Mayor Cornett. I can't remember Tulsa ever having 
specifically any good mayors.
    [Laughter.]
    Mayor Cornett. You will forgive me, that rivalry is 
extremely strong, Senator Inhofe.
    Senator Carper. Well, he has turned out OK here.
    Mayor Cornett. He has done well for himself.
    Senator Inhofe. Well, let me respond to that.
    [Laughter.]
    Senator Inhofe. During the time that I was Mayor of Tulsa, 
I was mayor for three terms. Three terms, four terms? It was a 
long time ago. But anyway, during that time, we put together 
programs that others didn't. In fact, it was back during the 
second Reagan administration. He used my low water dam, which 
we did with no public funds whatsoever, we did it through the 
private sector, this is Reagan speaking now, as the greatest 
single public project totally privately funded in America. My 
case rests.
    [Laughter.]
    Senator Carper. My time is expired. Thank you, Mr. 
Chairman.
    [Laughter.]
    Senator Carper. First question, if I could, of all the 
witnesses, talking about programs like the Brownfields program, 
but other Federal programs, I would like to find out and ask 
what is working well with respect to this program. I would also 
like to ask what could we do better, what could we change or 
tinker with in order to get a better result. I like to say, 
everything I do I know I can do better. And I think that is 
true of Federal programs, too.
    Let me just ask if you all can think of one or two things 
that might need some tweaking as we take up reauthorization of 
Brownfields.
    Mayor Cornett. I can think of a couple of things. The 
$200,000 limit onsites, it would be helpful if that can be 
increased. There are a number of sites that still don't quite 
work. And a lot of the easier to do sites have already been 
done.
    Also, the length of time that it takes for the fund to 
actually arrive at the city level, it can sometimes be a year 
or more. Sometimes that development window can shut within that 
1-year time period. You apply for the grant, it takes maybe 6 
months to find out if you are going to receive the grant, then 
it takes another 6 months perhaps to receive the money. If that 
timeframe could somehow be shortened, I think that would be 
helpful.
    Senator Carper. Let me ask the other panelists, just by a 
show of hands, do any of you agree with what Mayor Cornett has 
just said? All right, two do and two are silent. OK, good. Do 
any disagree with what he said? All right, thank you. Let the 
record show nobody disagrees.
    Ms. Spinelli, anything that you would bring to our 
attention that might need some improvement?
    Ms. Spinelli. I have to concur with what he said. But more 
importantly, if it is possible to raise that $200,000, you 
can't get a gallon of gas for what you used to get a gallon of 
gas for 10 years ago. And we are looking at $200,000 now in an 
economy where, to have an engineering firm come in to do the 
work, it is not costing the same now that it did for us when we 
first started this program.
    Things do go up. It is just the way the economy works. I 
realize there is little money out there and it is very tough. 
But it has to be looked at objectively. Because it is loaves 
and fishes. And I wish we could say that we could take those 
loaves and fishes and do more with them. But with everyone 
asking for more on the other side of this equation and only 
that $200,000 to work with, it becomes very difficult.
    Senator Carper. All right, thank you. Mr. Scheff? And I 
noticed you raised your hand to agree with Mayor Cornett.
    Mr. Scheff. Yes, Senator, and so far I have agreed with 
everything that has been said so far on the panel.
    Senator Carper. That doesn't happen every day. Would you 
just say that again for us?
    [Laughter.]
    Senator Carper. It warms up the room when you say that.
    Mr. Scheff. Aside from the things that have already been 
mentioned outside of my testimony, I would highly recommend 
aligning the current eligibility for petroleum sites with 
hazardous substance sites. The two sites are treated completely 
differently. In order to be eligible to spend Brownfields funds 
on petroleum sites, an applicant has to be two owners removed 
from the last owner who dispensed petroleum at the site and 
therefore may be considered a responsible party. That is a 
really tough metric to hit, really tough. Especially in small 
communities where people tend to own land in their families 
essentially forever. That is one that I would definitely focus 
hard one.
    Senator Carper. Before you move off of that one, anybody 
else on the panel concur with what Mr. Scheff has said? Yes, 
you do? All right.
    Mr. Paull. We get feedback on that specific issue all the 
time. Given that Congress designated 25 percent of the funding 
to go to petroleum sites, obviously Congress views that as an 
important part of the program. And we 100 percent agree. But we 
are also handicapping our communities in addressing petroleum 
sites because of these extra eligibility hurdles.
    Senator Carper. All right. Anybody else want to comment on 
this particular point? Yes, ma'am?
    Ms. Buckholtz. Not speaking directly to petroleum sites, 
but I would like to be a little bit the devil's advocate and 
say that when we started this program, we intentionally did not 
fully fund the site assessment process or the cleanup process. 
What we were trying to do was put seed money in to leverage 
local communities to invest in themselves. I understand that 
the prices for everything are much higher than they were when 
we started the program.
    Senator Carper. Not for everything. Cell phones are a lot 
cheaper. There are some exceptions.
    Ms. Buckholtz. That is a good point. And televisions.
    [Laughter.]
    Ms. Buckholtz. But the point is, I think that it is really 
important to, the Federal Government can't go in every 
community and fix everything. That is not an appropriate role. 
What they have to do is provide technical assistance, in my 
view, and the tools to get it done. I am not sure that raising 
the ceiling on the grants would get us where we want to be. And 
it is not in keeping with the original intent of the program.
    Senator Carper. OK, thank you. Let me come back to Mr. 
Scheff. You had another point you wanted to make as well.
    Mr. Scheff. Yes, thank you, Senator. The other item I would 
look at is raising the limit that State-funded programs are 
under. Right now we are limited to only 50 percent of our grant 
which can go to on the ground, site specific projects. It would 
be nice to see that limit raised or potentially go away 
altogether.
    What that effectively does is say that 50 percent of your 
grant now has to go to administrative or programmatic functions 
versus taking those funds and putting them directly on the 
ground, especially in rural communities where it is important. 
And I also would like to mention that in our program, those 
sites-specific activities generally take place through private 
contractors. So those funds that we do devote to on the ground 
projects are generally going straight into the private sector 
and are being administered by the private sector on the ground.
    Senator Carper. Thank you.
    Mr. Paull, did you have another point you wanted to make on 
this question?
    Mr. Paull. Yes. A couple of the panelists had mentioned 
multi-purpose grants. I would like to put a little bit more 
meat on the bones of that. Multi-purpose grants would be a 
great tool to kind of expedite how things work in the 
Brownfields program. There are two problems with the sort of 
boxing up of the three grant programs. We have site 
assessments, revolving loan fund and cleanup grants. And we are 
further bifurcated into hazardous substance and petroleum.
    So oftentimes communities, as things change, they put in a 
grant application 1 year but a year or year and a half later, 
the No. 1 site that they are trying to move is not in the 
category that they originally applied for. It might need 
cleanup funds where the city has funding for site assessments. 
There is a great deal of lag time involved in this, if you have 
to do everything in order.
    If you are putting in a site assessment application that 
involves a lag before you actually get the funding in, and then 
you are probably missing another round, because those funds 
come in late in the year and you have to get your application 
in short after your funding comes in, you are probably missing 
another year. So it is actually a 3-year process to get from 
site assessment through cleanup.
    So if you had multi-purpose grants where you could move the 
funding back and forth between these three categories, it would 
be a huge advantage and would help expedite the process.
    Senator Carper. Good, thank you.
    I think, Mayor Cornett, did you mention something about 
this in your testimony?
    Mayor Cornett. Yes. We just had a number of success stories 
in that regard.
    Senator Carper. Anybody else want to comment for or against 
what Mr. Paull said? And I will wrap up at that point? Anybody 
want to say yea or nay? Yes, Mr. Scheff.
    Mr. Scheff. Senator, I would agree with what Mr. Paull said 
and additionally add that it would also help in States like 
ours and areas like ours where our field season can be 
extremely limited. If we are in Sun Valley or north Idaho, when 
we are under two to three feet of snow, it is really hard to do 
site work during those periods of time. And literally, we can 
end up with only four or 5 months out of the year where we have 
a window to do appropriate field work.
    So the multi-purpose grant would help to assist in moving 
those projects along without having a separate grant process in 
between.
    Senator Carper. Good. Thanks. And Mr. Chairman, thanks for 
giving me a few extra minutes. Thanks to the panel. You made 
some really good points. We love it when there is a convergence 
of views. This is very, very helpful. Thank you.
    Senator Lautenberg. I add my thanks and make mention of the 
fact that the record will be kept open for some time, so you 
may get a letter request for questions that are raised. So we 
would ask you to answer promptly, please. And once again, thank 
you. It was so nice to have a panel that has bipartisan 
character and where people agree. I thought that wasn't allowed 
around here any more.
    [Whereupon, at 11:32 a.m., the committees were adjourned.]

                                 [all]
</pre></body></html>
